Tl

OCKLE

2311 Douglas Street A : E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B te jefs contact @cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 20-1466

UNION HERMANDAD DE EMPLEADOS DEL
FONDO DEL SEGURO DEL ESTADO, ET AL.,
Petitioners,
Vv.
COMMONWEALTH OF PUERTO RICO, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY BRIEF FOR
PETITIONERS in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 2996 words, excluding the parts that are exempted by

Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 23rd day of August, 2021.
J am duly authorized under the laws of the State of Nebraska to administer oaths.

f GENERAL NOTARY-State of Rebraska “ Ai,
RENEE JU, GOSS o. ¢ du draw

Hy Comm. Exp. September §, 2023
Affiant

 

Notary Public
41333
